                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: 111020004                                                                         Page 1 of 1



         This investigation initiated from a review 1 that detected a PI2 received funding from NSF 3 and
         another agenc/ for conducting similar research. We found the PI: (1) submitted similar research
         proposals to NSF and the agency and (2) reported similar findings in project reports to NSF and
         agency without informing the program officers.

         The PI's actions did not warrant criminal prosecution or civil action. As a result of the OIG
         findings, the university implemented a corrective action plan under which the PI will receive
         remedial ethic training, fiscal administration training, submit certifications for the next year, and
         other actions designed to ensure the PI does not submit overlapping proposals in the future.
         Accordingly, this investigation is closed.




         2




NSF OIG Form 2 (11 /02)
